         COMPREHENSIVE PERINATAL

                   CARE PROGRAM





                      Richard P. Kusserow
                      INSPECTOR GENERAL




OEI-D1-90- 00460                            NOVEMBER 1990
                                EXECUTIVE SUMMARY

PURPOSE

The purose of ths inspection was to asses.s the initial implementation of the Comprehensive
Perinatal' Care Program (CPCP), an initiative of the Public Health Service (PHS) to reduce
infant mortalty. The specific issues examed in this inspection concerned: (1) the extent to
which CPCP grantees ' goals and objectives have met stated program criteria; (2) the extent to
which PHS has conducted oversight of the CPCP grantees; and, (3) the extent to which the
CPCP funds have been distrbuted to aras experiencing high infant mortality rates for the
general and minority populations.



BACKGROUND

This report examines one Deparent initiative diected at reducing the nation s high infant
mortality rate, the Comprehensive Periatal Care Progr (CPCP). The CPCP provides
supplemental funds for enhancing perinatal care systems in community and migrant health
centers (C/MC). The purpose of the CPCP has been to improve the pregnancy outcomes
and health status of women and infants served by these centers. The DIG' s interest in the
CPCP initiative is based on the Deparment s continuing concern over the nation s high infant
mortality rates and the growing investment being made in this initiative. The inquir was
based on: (1) discussions with PHS staff in headquarrs and regional offces who were
involved in the CPCP grant application review process and ongoing grtee oversight; (2)
discussions with Congressional staf famliar with the legislative history of the CPCP; (3)
review of relevant documents for the C/MHC program and CPCP initiative including program
guidance and application guidance memoranda, CPCP grant applications and application
review protocols, and approved budgets and data on perinatal users for all FY 1988 CPCP
grantees; (4) a review of recent relevant studies and evaluations of infant monaity and
perinatal care servces; and (5) census and infant monaity data from the National Center for
Health Statistics.

FINDINGS

The goals and objectives set forth in CPCP grant proposals approved by PHS have been in
accord with the intended purposes of the program.

In some cases, PHS had limited information on how grantees planned to spend the CPCP
funds awarded during the first year.

The PHS has established a basic framework for gathering information useful for assessing
the impact of CPCP services, although it is too soon to have been tested.
Many areas of the country with high rates of infant mortality have not been receiving CPCP
funds.

           Approximately 25 percent of CPCP funds 
    ave been awarded to community and
           migrant health centers serving areas with inant mortality rates below the threshold
           established by PHS for high infant monaity- 12 deaths per 1, 00 live birhs.

           Almost half of all community and migrant health centers have not appliedfor
           CPCP funds while others-including those serving areas with high infant monaity
           rates-have applied and have been disapproved.
           Nearly half of the nation s largest cities with high infant mortality rates-greater
           than 12 deaths per 1 00 live birs-have not been eligible for CPCP funds
           because they have no centers funded through sections 329/330 of the Public Health
           Service Act.



RECOMMENDATIONS

The PHS should strengthen its procedures for approving CPCP grants to assure adequate
accountability for CPCP funds.

The PHS should strengthen its efforts to provide technical assistance to community and mi­
grant health centers preparing CPCP grant proposals.

 The PHS should reexamine the approach for allocating CPCP funds to assure that these
funds are directed to areas of high infant mortality.

COMMENTS

We received comments from the Assistant Secretar    for Planning and Evaluation and the
Public Health Service. Both agencies concured with our recommendations. Their detaled
comments on the draft report and our responses to them appear in the final section of this
report.
                                                                  ;. . . -
                  . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .        . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. ... .. .. .. .. .. .. .. .. .. .. .. .
                                                                    . .. .. .. .. .. .. .. .. .. .. .. .. .. ... .. .. ... ............. ... .. .. ... ... . .. .. .. .




                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION.                                                                                                                         8 . . . . . . . . . . . . 1



FINDINGS

           The goals and objectives set forth in CPCP grant

           proposals approved by PHS have been in accord with

           the intended purposes of the program. . . 

           In some cases, PHS had limited information on how
           grantees planned to spend the CPCP funds awarded
           during the first year
           PHS has established a basic framework for gathering

           information useful for assessing the impact of CPCP

           services, although it is too soon to have been tested

           Many areas of the country with high rates of infant
           mortality have not been receiving CPCP funds. . .

RECOMMENDATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
           The PHS should strengthen its procedures for

           approving CPCP grants to assure adequate

           accountabilty for CPCP funds


           The PHS should strengthen its efforts to provide
           technical assistance to community and migrant health
           centers preparing                  CPCP grant proposals
           The PHS should reexamine the approach for
           allocating CPCP funds to assure that these funds are
           directed to areas of high infant mortality. . .
COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE

APPENDIX A: ENDNOTES ....................................... A­

                                      INTRODUCTION


PURPOSE

The purose of this inspection was to assess the initial implementation of the Comprehensive
Perinatal Care Program (CPCP), an initiative of the Public Health Service (PHS) to reduce
infant mortalty. The specific issues examined in this inspection concerned:

      The extent to which CPCP grantees ' goals and objectives have met stated program
      crteria;

      The extent to which PHS has conducted oversight of the CPCP grantees; and,

      The extent to which the CPCP funds have been distrbuted to areas experiencing high
      infant mortality rates for the general and minority populations.

BACKGROUND

Infant Mortality in the United States



Infant monaity is a serious problem in the United States. In 1987, the United States raned
21 st among industralized countres in its rate of infant monaity       10. 1 deaths per 1 000 live
birhs. 2 Although infant mortality rates in the United States have decreased durng the past
decade, the rate of decline has slowed in recent years. 3 This is largely because the incidence
of low binhweight birs-a major factor influencing infant mortalty-has declined only
slightly during this period.

Infant mortlity rates among certai ethnic groups and in certain urban and rual geographic
areas remai high , and in some instances, have been increasing. In 1987, for example, the
national infant mortlity rate for blacks was 17. 9 deaths per 1 00 live birhs-twice the rate
of 8. 6 deaths per 1 000 live birhs for whites.
                                                S In 1986, the infant mortalty rate was 21.1
deaths per 1, 000 live birs in Washington , D. C., 20.3 in Detroit, and 16.3 in Cleveland. 6 For
the fIrst 6 months of 1989, Washin       , D. C. reported an unprecedented infant mortlity rate
of 32. 2 deaths per 1 000 live birhs.


The nation s high infant mortality rates have, over the years, attacted widespread attention
from the public, health professionals, and the government. Ten years ago, the Deparent of
Health and Human Services (HHS) set national goals for improving the health of Americans
by 1990. Several goals focussed specifically on infant mortality. One of these stipulated that,
by 1990, the national infant mortality rate not exceed 9 deaths per 1 00 live birs and
another that no county and no racial or ethnic group have infant mortality rates greater than 12
deaths per 1, 000 live birhs.
 HHS Efforts to Reduce Infant Mortality

  The Deparent of Health and Human Services (HS) has long supported programs aied
  reducing infant monaity though improved health care for mothers and infants. Beginning in
  1935, Title V of the Social Security Act authorize grants- to the States for services to promote
  maternal and child health. Over the years , Title V has been amended a number of times,
  although the goal of promotig the health of mothers and childrn , especially those at risk for
. poor health, has remaied the same.

 In 1981, Title V was amended to establish the Maternal and Child Health Services Block
 Grants which provided consolidated fundig to the States for the varous categorical programs
 which had been supported under Title V. The States have used the block grant funds to
 support a varety of health service programs, including those aimed at reucing infant
 mortality. These infant mortlity initiatives may be strengthened in the years ahead because of
 a new Federal set-aside provision contained in Omnibus Reconciliation Act of 1989. This
 provision prescribes a certn percentage of funds from the MCH block grant appropriations
 be set aside specifically for infant mortality initiatives with preference being given to projects
 in areas with higher than average infant mortality rates.

 Furher, the Medicaid program (Title XIX of the Social Security Act) has, since the
 mid- 1960s, provided an importt source for financing health services, including prenatal and
 postnatal care, for low income women and infants. Since the mid- 1980s, Congress has sought
 to expand Medicaid coverage for pregnant women and childrn though varous options and
 mandates to the States.

 Community and Migrant Health Centers and the Comprehensive Perinatal Care Program

 Community and migrant health centers (C/MCs) have been another major cornerstone of
Deparental efforts to reduce infant mortality. Since the early 1970s, PHS has provided
financial support to C/MCs, which provide comprehensive priar health services in
medically underserved areas. CUlTently, PHS supports approximately 600 C/MCs through
grants funded under sections 329 and 330 of the Public Health Service Act and through the

National Health Service COIpS (NHSC) which provides health personnel such as nurse

practitioners, obstetrcians, and pediatrcians to many centers. The C/MCs serve nearly six

millon people, most of whom ar poor, uninsured or insured by Medicaid, and members of
mmonty groups.

The PHS requires C/MCs       to provide perinatal care services among other tyes of primar
health services. Periatal care includes medical, educational, and social support services
provided to pregnant women and infants from conception through postparum and newborn
care. 12 Experts have long recognized that comprehensive perinatal services ar critical in

assuring healthy pregnancy outcomes and in reducing infant deaths. 13 Equally important are

access to early and continuous prenatal care services; case management, whereby one person

the case manager, coordinates clients ' services; and, one-stop-shopping, meaning the

integration of comprehensive perinatal care with other speciald services. These approaches
to care are emphasized by C/MCs.

Recently, the Congress and the Deparment became increasingly concerned over the slowing
decline in the nation s infant mortality rates and the possibilty that the Surgeon General'
goals for reducing these rates by 1990 would not be attained. They agree on the need to
bolster Deparental efforts to reduce infant mortality given that also durng this period,
Federal appropriations for the C/MCs were being reuced
                                                              f Federal support for the NHSC
was declining, and medcal malpractice costs were soarng. 4 Thus Congrss appropriated
additional funds for a special infant mortality initiative in FY 1988. The PHS used these
funds to develop and implement the Comprehensive Perinatal Cae Program (CPCP) ih
C/MCs.
The purpose of the CPCP initiative has been to improve the pregnancy outcomes and health
status of women and infants served by the C/MCs and thereby reduce infant mortality in
these communities. The PHS has used the CPCP funds to supplement-or, in some cases, to
maintan-the existing perinata services offered by the centers, rather than to demonstrate


                         15
innovative approaches for reducing infant mortality. This strategy has been consistent with
the intent of Congress which has, through varous appropriations and authorization
documents, made clear that these funds should support expanded capacity and enhanced
servIces In e centers.


The PHS awarded 207 CPCP grants in FY 1988 and 263 grants in FY 1989. In both FY 1988
and FY 1989, PHS established application and review processes for the CPCP funds which
were separate from the process followed for the centers ' regular 329/330 funding. 16 The
CPCP initiative is administered in PHS by the Division of Special Populations Program
Development, Bureau of Health Car Delivery and Assistace, Health Resources and Services
Administration.

The short history of the CPCP initiative ilustrates the growing investment being made by the
Congress and the Deparment in this program. As the fIrst CPCP grants became operational in
1989, former Secretar of Health and Human Services, Dr. Otis R. Bowen , referred to the
CPCP as the " leading edge of DHHS' total efforts to reduce infant monaity. ,, 17 Moreover
fundig for the initiative, which is a separate line item in the budget, has increased steadily.
Congress appropriated $20. 1 millon in FY 1988, $20. 5 milion in FY 1989, and $32 millon
in FY 1990. The FY 1991 President s Budget includes a request for $36 milion for the
CPCP-which , if appropriated, would represent an 80 percent increase in CPCP funding since
FY 1988.

In view of the continuing concern over the countr s high infant mortality rates and the
enhanced investment being made in the CPCP, we examined this initiative to assist the
Deparent in strengthening its efforts to reduce infant mortality. Accordingly, this report
presents our findings related to the implementation of the CPCP and concludes with
recommendations to PHS regarding the management of this initiative.
Sources of information for this study included: (1) discussions with PHS staf in headquarers
and regional offces who were involved in the CPCP grant application review process and
ongoing grantee oversight; (2) discussions with Congressional staf familiar with the
legislative history of the CPCP; (3) review of relevant documents for the C/MC program and
CPCP initiative including program guidance and application guidance memoranda, CPCP
grant applications and application review protocols, and approved budgets and data on
periatal' users for all FY 1988 CPCP grantees; (4) a review of reent relevant studies and
evaluations of infant mortalty and perinatal care services; and (5) census and inant mortality
data from the National Center for Health Statistics, PHS.
                                                    FINDINGS


The goals and objectives set forth in CPCP grant proposals approved by PHS have been in
accord with the intended purposes of the program.

The puroses of the CPCP have been described in varous                Congressional documents, the
announcements of available funds published in the                    and the application
                                                          Federal Register, 


guidance developed and administered by PHS. Our review of these documents confIrmed that
PHS has approved CPCP                    grt
                              proposals consistent with the intent of Congress, the criteria in
the Federal Register and the application guidance for the CPCP.


The PHS has reviewed and approved CPCP grant proposals consistent with the intent of
Congress that CPCP funds be awarded to C/MCs " to help them integrate and coordinate
appropriate services throughout the pregnancy and fist year of life in order to meet effectiveiy
the health care needs of mothers and infants. 18 The Congrss hoped that an infusion ofthese
funds would help reduce infant monaity consistent with the Surgeon Genera' s goals for 1990.

The criteria PHS developed to evaluate the CPCP grant proposals were also consistent with
those criteria summarzed in the           Federal Register 
     and described in the application guidance
for each year.        19   The  PHS required   applicants    to submit proposals which addressed these
criteria: the demonstrated effectiveness of existing perinatal care programs; a documented
assessment of needs; an adequate and feasible plan to meet the needs; the extent to which the
center is par of a coordinated system of care in its community; an adequate plan to evaluate
the results of the services; and the appropriateness of the proposed budget.

Our analysis of the budgets for FY 1988 CPCP grtees indicates that, for those grantees for
which information was available, the grantees ' projected expenditures were in accord with the
purposes outlined by Congress and described in the application guidace. 20 Case
management, outreach services , health education , nutrtion counseling, patient follow-up and
transportation to prenatal appointments were among the services to be supported with CPCP
funds. These grantees projected spending nearly three- fourths of their CPCP funds on
personnel such as nurses, case managers, obstetrcians and gynecologists, and social workers
(see figure 1) to provide these services.
The present distrbution pattern of CPCP funds is likely to be perpetuated though the
consolidation of the CPCP and the C/MC review and funding processes this year. The PHS
wil incorporate the level of CPCP support provided to the FY 1989 grantees into their " base
or basic level of 329p30   funding in FY 1990. This approach appears to be consistent with the
intent of Congress, 2 and Wil provide reasonable assurance to grantees of more stable,
long- term support for perinata services. At the same time, however, PHS wil have less
flexibilty in targeting these special funds to areas of highest need.


We acknowledge that the CPCP funds allocated to areas with infant monaity rates less than
12 deaths per 1 000 live birhs ar nevertheless helping to address the nation s infant monaity­
problem. These areas may have pockets of higher infant mortalty rates, which would not be
reflected in the rates for the larger ara. In some areas, the infant mortality rates may be
increasing, even if they ar stil below 12 deaths per 1 00 live birs. Also, the CPCPfunds
may help some areas to maintain their low rates. However, this distrbution pattern raises a
major policy question regarding how these scarce resources can best be diected in accord
with the national concern about high infant mortality rates.

      Almost half of all community and migrant health centers have not applied for CPCP
      funds while others-including those serving areas with high infant mortality
      rates-have applied and have been disapproved.
Many centers funded through sections 329/330 of the Public Health Service Act-which by
definition provide services in medically underserved areas-dd not apply for CPCP funds in
either FY 1988 or FY 1989. In fact, only slightly more than half of al centers applied for
CPCP funding during either year, and not all applications were approved. In FY 1988, PHS
was unable to approve approximately one-third of the CPCP applications. Among those
disapproved were applications from at least 47 centers-alost hal of all those
disapproved-serving areas with infant monaity rates greater than 12 deaths per 1 000 live
birhs. In FY 1989, PHS was unable to approve only about 15 percent of the CPCP
applications. Twenty-six , or more than half, of the disapproved
centers serving areas with infant mortality rates greater than 12. Nplications were from

      Nearly half of the nation s largest cities with high infant mortlity rates-greater than
      12 deaths per 1, 000 live birhs-have not been eligible for CPCP funds because they
      have no centers funded though sections 329/330 of the Public Health Service Act.

A significant number of the nation s largest cities-those with populations of 100, 000 or
more-have not parcipated in the CPCP initiative because they have lacked 329/330
community and migrt health centers-the required conduit for the CPCP funds. These
major cities are among the areas of the countr experiencing the highest rates of infant
mortality. 29



Nearly 40 percent of all infant deaths and slightly more than 60 percent of black infant deaths
occurred in these cities in 1987. According to the National Center for Health Statistics, there
. The extent to which these tyes of infonnation wil enable PHS to assess the impact of the
  CPCP initiative remains to be seen. As noted earlier, the progr is stil relatively new and
  these efforts ar largely untested. The data from the perinatal user profies, for example, do
  not specify the extent, types, or timig of perinatal services. Moreover, the progress reports
  we reviewed from FY 1988 grantees vared greatly in scope and quality. Finally, it is not clear
  at this time how PHS wil account for the CPCP funds and assess their impact when the
  application review and funding processes are consolidated this year. Even now PHS has not
  required grantees to report on expenditures incured specifcaly for CPCP support services.
. Thus, the information specific to the CPCP funded services may not prove suffcient for
  adequately assessing the impact of the CPCP and assuring adequate accountabilty for this
  increasing investment of Federal funds.

 Many areas of the country with high rates of infant mortality have not been receiving CPCP
 funds.

       Approximately 25 percent of CPCP funds have been awarded to community and
       migrant health centers serving aras with infant mortality rates below the thrshold
       established by PHS for high infant mortality- 12 deaths per 1;00 live birhs.


 Approximately one in four CPCP dollars each year has been awarded to centers with service
 areas that have infant mortlity rates less than 12 deaths per 1 00 live birhs for both the
 general and minority populations 25 -awards which involved sixty different centers. These
 rates are the levels above which PHS has considered the incidence of infant mortality to be
 high. In its 1990 Health Objectives for the Nation , fonnulated in 1980, PHS set as a goal that
 by 1990 no county and no racial or ethnic group of the po ulation should have an infant
 mortality rate in excess of 12 deaths per 1 00 live birhs. More recently, PHS used this
 same rate in its review of CPCP applications to define C/MCs with service areas
 experiencing high infant mortlity. Areas with rates higher than 12 were viewed as being

 greater need of CPCP funds than areas with lower rates. However, nearly $10 milion of the
 CPCP funds over the past 2 years have been diected to centers serving areas with infant

 mortality rates not considered by PHS to be paricularly high.


 The PHS did consider the infant mortality rates of the areas served by centers when funding

 CPCP grantees. However, those rates considered high-above 12 deaths per 1 000 live

 births-were not heavily weighted in the funding process which included many other

 considerations.


Moreover, a sizeable number of centers serving areas with infant mortality rates below the
national rate have received CPCP funds. As noted earlier, the national infant monaty rate in
1987 was 10. 1 deaths per 1 00 live birhs. The PHS awarded CPCP funds to 27 centers each
year with service areas where the infant mortality rates were less than 10 for both the general
and minority populations.
  . .




                                              FIGURE 1
                 Personnel Expenditures Projected by CPCP Grantees,
                                         Fiscal Year 1988





                     Admin/Clerical

                          Midwives

                      Nutritionists
                                                                       Case Managers
                                                                             18%

                                      Other
                                       16%
                                                         Social Workers
                                                               11%
        Note: N=152 of 207   CPCP Grantee Budgets

        Source: OIG/OEI analysis of FY 1966

        data provided by U. S. PHS





In some cases, PHS had limited information on how grantees planned to spend the CPCP
funds awarded during the first year.

Our analysis of the approved budgets for fIrst year grantees indicated that for slightly more
than 25 percent of the grantees, PHS did not have budgets which clearly depicted the
expenditures projected specifcally for the CPCP funds. In most cases , PHS had to rely on
revised budgets rather than the original grant applications for an accurate picture of the
services to be provided and the tyes of expenditures planned. Although the original
applications were the bases upon which PHS made approval and funding decisions, they
usually did not accurately portay the CPCP services to be implemented. This was the case
because, in most instances, the CPCP grants which were actually awarded by the PHS were
significantly lower than the amounts requested and described by the applicants in their
ongm app lcatIons.
In some cases, CPCP funds were not distinguished from other types of funds in these revised
budgets. In other instances, no itemized expenditures were projected for the CPCP funds, or
the CPCP funds which were itemized did not total to the amount of the grant award as
reported to us by PHS. Without this documentation, PHS could not know the specifc
periatal services   to be supported with CPCP funds.
                                                                                                  i'f'




were 177 cities with populations of 100;00 or more in 1987. There were 38,408 infant
deaths nationally in 1987; 15, 140 (39 percent) of these deaths occured in these 177 cities.
There were 11,461 infant deaths among blacks nationally in 1987; 7, 080 (62 percent) of these
deaths occured in these 177 cities.

Among the cities of 100, 00 or more population, 43 percent of those having high rates of
infant mortalty for blacks in 1987 were not eligible for CPCP funds the fIrst year because
they had no 329/330 community or migrant health centers (see figur 2). Likewise, among
these large cities, 40 percent of those having high rates of infant mortality for the general
population were also not eligible. 30 In fact, of the ten cities in the countr with the highest
infant mortalty rates, two of them-Richmond and Portsmouth, Virginia-were among those
without 329/330 community and migrant health centers and thus not eligible to receive CPCP
funds.


                                            . FIGURE 2
                       CPCP Eligibilty and Black Infant Mortaliy
                        Rates for Cities  100, 000 or More, 1987
                                             of




                                                                             CPCP Ineligible
                                                                                   43%
                                            Black IMR )-= 12
   Black IMR -( 12                                70%
         30%
                                                                             CPCP Eligible

                                                                                   57%





     Note: Pie N=177 Cities
     Column N=136 Cities
     Source: U. S. Public Health Service





It is important to note that less than half-approximately 40 percent--f the community and
migrt health centers are located in urban aras. 31 Yet urban aras nationally have had
higher rates of infant monaity than rual aras, although , to be sure, some rual areas have
indeed had high rates of infant mortalty. Not only have the rates of infant mortality been
higher in urban areas than in rual areas, but so too has the incidence of infant death. Indeed,
at least 3. 5 times as many infant deaths occured in metropolitan areas as in non-metropolitan
areas during the 3- year period 1985- 1987. 32 Thus, because CPCP funds have been limited to
329/330 community and migrant health centers, many large cities with high need but without
such centers have not received CPCP funded services.
                                  RECOMMENDATIONS

In light of the situation described in the previous pages, we offer the following
recommendations to the PHS with respect to its management of the CPCP initiative.

The PHS should strengthen its procedures for approving CPCP grants to assure adequate
accountability for CPCP funds.

It is essential that the approval process for CPCP grants assurs that PHS has specific,
comprehensive, and up-to- date information on how CPCP grantees plan to spend their grant
funds. This information is essential for assuring   the financial integrty   of the CPCP and for
assessing the impact of the program.
The PHS should strengthen its efforts to provide technical assistance to community and
migrant health centers preparing CPCP grant proposals.

As we have seen , many centers have not applied for CPCP funds; others serving areas with
high infant mortality rates have had their proposals disapproved. We encourage PHS to
strengthen its technical assistance to these centers so that more of them apply for CPCP funds
with high quality grant proposals.

 The PHS should reexamine the approach for allocating CPCP funds to assure that these
funds are directed to areas of high infant mortality.

The CPCP has been a significant new initiative in the Deparment s       continuing effort to
reduce the countr s high rates of infant mortality. With considerable support from Congress,
the CPCP has offered PHS an opportunity to direct specially appropriated funds into services
aimed at reducing infant mortality in the low income, medically underserved areas served by
the centers.

We urge the PHS to reexamne the approach to allocating the CPCP funds. Our analysis
raises important policy issues regarding whether these CPCP monies ar being diected in the
most strategic manner and whether continuation of the present pattern of allocating these
funds wil best serve the intent of this initiative. Resources ar scarce, and the need for
improved perinatal services is great in many areas of the countr. Yet, as we have seen , a
substatial porton of CPCP funds-about 25 percent in both FY 1988 and FY 1989-has not
been directed to areas experiencing high rates of infant mortality. Moreover, many aras of
high need, including many large cities of the countr, have been deprived of CPCP supported
services-ither because they have lacked a 329/330 community or migrant health center or
because the center s application for CPCP funds has been disapproved.

Among the importnt policy questions to consider are the following. Should infant monaity
rates figure more prominently in the application and funding process for CPCP funds? Should
any increases in the CPCP appropriations be more selectively targeted to centers serving areas
        COMMENTS ON THE DRAFT REPORT AND OIG RESPONSE

We received comments on the draft report from the Assistant Secreta for Planning and
Evaluation (ASPE) and the Public Health Service (PHS). The comments ar contained below
in their entirety and are followed by the DIG response.

COMMENTS FROM ASPE

As you know, reducing infant monaity has been a Deparental priority for a number of
years. We have seen numerous maternal and child health demonstrations and program
expansions arve with great promise, only to observe no change in infant mortality and
morbidity rates.

The report on the CPCP was parcularly useful in terms of evaluating our policy direction
since it appears that the funding may not have gone to the highest priority areas, not all the
potential funding candidates applied for assistace, and we lack the information necessar to
evaluate CPCP' s impact. The recommendations of the      drtreport point out that an innovative
idea may not meet its full potential because of serious admnistrative failures.

OIG RESPONSE
     We are pleased with ASPE' s concurrence with our recommendations.

COMMENTS FROM PHS

Attached are the PHS comments on the subject DIG draft report.

We concur with the report s recommendations to (i) improve PHS technical assistance to
comprehensive perinatal care program (CPCP) grantees and approval process for grant
proposals, and (ii) reexame the approach for allocating funds to aras of high infant
mortality rates.

We are now reviewing strategies to improve progr accountabilty, and target technical
assistace to grantees in areas of high infant monaity rates. We wil consider alternative
strategies (other than CPCP) to fund perinatal activities at current CPCP sites at which infant
mortality rates and other indicators reflect lesser need. This wil assure that contiued
eligibilty for CPCP funding is based on highest need.

OIG RECOMMENDATION
     The PHS should strengthen its procedures for approving Comprehensive
     Perinatal Care Program (CPCP) grants to assure adequate accountabilty          for
      CPCP fund.

with the highest rates of infant mortality? How might perinatal services be supported more
intensively in those very needy areas without community or migrant health centers? Is it a
more effective use of limited resources to fund many centers in modest amounts or to taget
fewer centers in the neediest areas for more substantial support? As the Federa investment in
the CPCP continues to increase each year and as evaluation fmdings become available, we
urge PHS to consider questions such as these in order that the limited dollars available for the
CPCP achieve the maximum impact on this most pressing problem of infant mortality.
 COMMENT FROM PHS

  We concur. PHS is reviewing alternative strategies which optimize progr accountabilty
  and which also are sensitive to the grantee s admistrative burden of submitting applications
  for the Community and Migrant Health Center (C/MC)-Programs as well as the CPCP.
  Cuntly, CPCP and C/MC grantees use a single budget which combines dollars for both
  programs. By the end of Fiscal Year 1991 , PHS wil requir separte budgeting of CPCP
. costs. In cases where that CPCP award differs from the original request, PHS wil require a
  revision of the CPCP budget.

 OIG RECOMMENDATION
       The PHS should strengthen its efforts to provide technical assistance to
       Community and Migrant Health Centers preparing CPCP grant proposals.

 COMMENT FROM PHS

 We concur. PHS plans to strengthen its efforts by targeting technical assistance to C/MCs in
 areas of highest infant mortality which have not yet been able to develop an approved and
 funded application. By October 1990 PHS wil identify and prioritize key cities that have
 high infant mortality rates and do not have any CPCP grts. By November 1990 PHS wil
 define priority areas to develop successful CPCP proposals. The plan wil drw on regional
 clinical expertse. In addition, PHS wil taget a portion of Fiscal Year 1991 CPCP
 appropriations, which ar in excess of the amount required for continuation grantees, to fund
 new CPCP grants at C/MCs in areas with the highest infant monaity rates.

 OIG RECOMMENDATION

      The PHS should reexamine the approach for allocating CPCP funds to assure

      that these funds are directed to areas of high infant mortality.


 COMMENT FROM PHS

 We concur. We have targeted and wil   continue to   target CPCP resources to areas of greatest
 need by considerig county   infant mortality rates and other indicators of local area need. By
 December 1990, PHS wil consider alternative strategies (other than CPCP) to fund periatal
 activities at curent CPCP sites at which infant mortlity rates and other indicators reflect
 lesser need. This wil assure that continued eligibilty for CPCP fundig is based on highest
 need.

 Many aras without C/MCs have high infant monaity rates, and on this basis the       drt
 report suggests broadening eligibilty for CPCP funding. Curent appropriation language
 prohibits this. However, PHS wil identify areas with exceptional need, including periatal
 human immunodeficiency virus, and other excessive health risks, to receive priority
 consideration should funds become available for new C/MHC and CPCP awards. In addition
 PHS wil explore the possibilty of coordinating infant monaity reduction efforts with those
 of other relevant programs.
We believe that limited CPCP funds can be most effectively utilized by targeting
community- based prima care systems. These systems are well estab ished in C/MCs. To
do otherwise deletes the cumulative impact of the C/MC and CPCP initiatives.

OIG RESPONSE TO PHS COMMENTS
     We appreciate PHS' positive response to our recommendtions.

     We are pleased that beginning in FY         1991           PHS wil require grantees to budget
      separately for CPCP costs and to revise grant budgets in cases where the actul
      award difers from the amount requested. We think it is important that in the
     future these revised budgets, which were required in FYs 

                                                                             1988  an  1989, clearly
      itemize those expenditures proposed exclusively for the CPCP services.

     Further, we wish to clarif that the draft report did noi specifcally call for
     broadening eligibilty for CPCP funding. Rather, we expressed concern that
     many areas of the country with high rates of infant mortality lacked CIMHCs.
     Therefore, we suggested that PHS consider, among other issues, how perinatal
     services in those areas might be supported more intensively.

     Finally, we are particularly pleased that PHS is reexamining its approach for
     allocating CPCP funds to assure that these limited funds are targeted to areas of
     highest need.

                                 ,"




                                         APPENDIX A

                                           ENDNOTES

Infant monaity refers to infant deatQs           before age one.


Kathleen McCormick Prenatal Care: Rationing the Risks, Medicine      Health,
43(47), Faulker & Gray s Health Care Informtion Center, Washington , D. C., Decem­
ber 4, 1989.

Medicare and Medicaid Guide Number 597, Commerce Clearng House, Inc., Chicago,
Illnois, October 11, 1989, p. 8.

  Prenata Care, "    op. cit.

Infants born weighing less than 2 500            grs ar
                                                 low bir weight infants. These infants
are as much as 40 times more likely to die in the first month of life than normal weight
infants.

The National Commission to Prevent Infant Mortalty, "Death Before Life: The
Tragedy of Infant Mortality, " August, 1988, p. 23.

Medicare       Medicaid Guide,        op. cit.

National Center for Health Statistics, Centers for Disease Control , Public Health Ser­
vice, Deparment of Health and Human Services.

  Prenata Care, "    op. cit.

  S. Public Health Service, " The 1990 Health Objectives for the Nation: A Midcourse
Review," 1986, pp. 36- 37.

The Deparent of Health and Human Services recently released the draft objectives for
the year 2000 , including that the national infant mortalty rate not exceed 7 deaths per
   00 live birhs and that the black infant monaity rate not exceed 11 deaths per 1,000
live birhs.

   S. Public Health Service, "Promotig Health/venting Disease: Year 2000 Objec­
tives for the Nation " Draft Report September, 1989, p. 11­

 Death Before Life, " op. cit.
                                                                                    ,"




10.	   The set-aside provision requires that two- thirds of 12. 75 percent of MCH block grant ap­
       propriations be set aside for infant mortality initiatives.

          S. Congress, House, 
         Omnibus Reconcilation Act of 1989, 101st Cong., 1st sess., HR
       3299, Congressional Record, 
         Vol. 135, no. 165, Daily ed. (November 21 , 1989), H9472­
       H9473.

11.	    Death Before Life, " pp. 64- 65.

12.	   John Snow, Inc., "Periatal Care: How to Establish Periatal           Services in   Community
       Health Centers, " August, 1985, p. 2.

13.	    Death Before Life, " p. 7.

14.	   Contract No. HRSA 240- 87- 0056, La Jolla Management Corporation Perinatal Care in
       Communities Served by Community and Migrant Health Centers, " Columbia , Mar-
       land, 1989, p. ii.

15.	     S. Senate, Report No. 100- 189, "Deparments of Labor, Health and Human Services,
       and Education and Related Agencies Appropriation Bil , 1988," October 1 , 1987.


         S. Senate, Report No. 100- 343, " Community and Migrant Health Centers Amend­
       ments of 1988," Public Law 100- 386, August 10, 1988.

16.	   The PHS reviewed grant applications once each year in a process involving review
       teams in both the regions and headquarers. Final award decisions were made in head­
       quarers.

17.	   Bowen , Otis R., M.             , Fiscal Year 1990 Budget Press Conference, Januar 9, 1989.

18.       S. Senate, Report No. 100- 343, op. cit.

19.	   53 FR 11345- 11347.


       54 FR 5679- 5681.

          S. Public Health Service, " Supplemental Grants for the Development of a Compre­
       hensive Periatal Care  Program in Community and Migrant Health Centers: Applica­
       tion Guidance," 1988.

         S. Public Health Service, " Comprehensive Perinatal Care Program- Regional Guid­
       ance Memorandum 89- 4," March 8 , 1989.

         S. Public Health Service, " Comprehensive Perinatal Care Program- Grant Application
       Review Process, Regional Guidance Memorandum 89- 6," April 28, 1989.
11

     20.	   We reuested the approved budgets for all FY 1988 CPCP grtees from the ten PHS
            Regional Offces. This  analysis is based on the budgets for 152 of the 207 FY 1988
            grantees. Budgets from the remaining FY 1988 grantees were not suffciently specific
            to be included. This analysis was limted to FY 1988 grantees because data for the FY
            1989 grantees was not yet available.

     21.	   Ninety-one percent ofFY 1988 grantees and 90 percent ofFY 1989 grantes were
            awarded CPCP funds in amounts lower than the sums they had requested. In both
            years, the average grant award was nearly 60 percent less than the average request. The
            average request in FY 1988 was $232 996; the average amount awarded was $96, 325. ..
            In FY 1989, the average request was $182, 140; the average award was $73, 508. The
            FY 1989 grantees were awarded funds for periods raging from 3 to 15 months in order
            that they termnate on the last day of the centers ' grant periods for basic 329/330 fund­
            ing.

     22.	   The PHS has imposed few reporting requirements on grantees regarding their CPCP
            funds-an approach favored by the Congress in order that the new services be initiated
            as quickly as possible. (U. S. Senate, Report No. 100- 343, op. cit.)

     23.	   Contract No. HRSA 240- 87- 0056, " Perinatal Care in Communities Served by Migrant
            and Community Health Centers, " op. cit.

     24.      S. Senate Report No. 100- 343, op. cit.

     25.	   Our analysis is based on infant mortality rates for the centers ' service areas provided to
            us by PHS. These rates were used by PHS when makg funding decisions for CPCP
            grant awards. The PHS calculated infant mortlity rates for each center based on infant
            mortality rates aggregated by county. The PHS acknowledges that these calculated rates
            are thus estimated rates for each center because the center s specific service area may be
            larger or smaller than the county(ies) included in the calculations.

     26.     The 1990 Health Objectives for the Nation " op. cit.

     27.	     S. Senate, Report No. 101- 127, " Deparments of Labor, Health and Human Services,
            and Education and Related Agencies Appropriations Act of 1990, " Public Law 101- 166,
            November 21 , 1989, pp. 53 and 55.

     28.	   This analysis is based on infant mortality rates provided by PHS. The data for FY 1988
            is incomplete because rates were not available for all centers and data on disapproved
            applications was not available for one region.

     29.    Prenata Care, "   op. cit.




                                                    A-3
   ,.-:, ..




f. 


              30.	   This analysis is based on infant mortality data for 1987 from the National Center for
                     Health Statistics, PHS. Data on community and migrant health centers are from the
                     Bureau of Health Car Delivery and Assistance (BHCDA), PHS.

                     Among the 177 cities with populations of 100, 00 or more, 136 cities had black infant
                     mortality rates greater than or equal to 12 deaths per 1 00 live birhs; 58 of these 136
                     cities were ineligible for CPCP funds.

                     Among these 177 cities, 74 cities had genera infant mortality rates grater   than or equal
                     to 12; 30 of these 74 were ineligible for CPCP funds.

              31.     Death Before Life, " p.. 63.

              32.	   Based on infant mortality data for 1985- 1987 provided by the National Center for
                     Health Statistics, PHS.




                                                           A ­

